October 7, 2020
Clerk of the U.S. Supreme Court
Supreme Court of the U.S.
1 First Street, NE
Washington, DC 20543
Re:

Rafael Martinez, et als., Petitioners v. Bryheim Jamar Baskin, Respondent
Writ of Certiorari

Dear Clerk of the U.S. Supreme Court:
I am counsel for the Petitioners in the above referenced matter.
Enclosed please find a check in the amount of $300 for the filing of the Petitioners’ Writ
of Certiorari mailed via overnight delivery on October 5, 2020.

Very Truly Yours,
/s/ Timothy J. Galanaugh
Timothy J. Galanaugh
Assistant City Attorney
Attorney for Petitioners
TJG:sse
Encl.
Cc: Zachary L. Grayson, Esquire

SUITE 419, CITY HALL, P.O. BOX 95120, CAMDEN, NEW JERSEY 08101-5120

